Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 SOME MICHIGAN CHILD CARE
  CENTERS DID NOT ALWAYS
 COMPLY WITH STATE HEALTH
   AND SAFETY LICENSING
      REQUIREMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                          Gloria L. Jarmon
                                       Deputy Inspector General
                                          for Audit Services

                                              August 2014
                                             A-05-13-00053
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as
questionable, a recommendation for the disallowance of costs
incurred or claimed, and any other conclusions and
recommendations in this report represent the findings and opinions
of OAS. Authorized officials of the HHS operating divisions will
make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The three providers that we reviewed did not always comply with applicable State licensing
  requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers that received CCDF funding, we audited three licensed child day care
centers (providers) that received CCDF funding in Michigan. We conducted this review in
conjunction with our review of 20 family and group day care homes (report number
A-05-13-00031).

The objective of this review was to determine whether the Michigan Department of Education’s
(State agency) monitoring ensured that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act and the Social
Security Act, § 418, assists low-income families, families receiving temporary public assistance,
and families transitioning from public assistance to obtain childcare so that they may work or
obtain training or education. Combined funding for the CCDF program for fiscal year 2012,
including the block grant’s discretionary fund and the CCDF mandatory and matching funds,
was approximately $5.2 billion.

The State agency is the lead agency designated to administer the CCDF program. The Michigan
Department of Human Services’ Bureau of Children and Adult Licensing (State licensing
agency) is responsible for licensing and periodically monitoring providers.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Michigan, the State licensing agency is responsible for
childcare licensing and enforcement personnel, who conduct inspections to ensure that providers
meet basic health and safety standards. State regulations mandate that the State licensing agency
conduct an onsite evaluation of providers at least once a year.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                   i
WHAT WE FOUND

Although the State licensing agency conducted the required inspections at all three of the
providers that we reviewed, this onsite monitoring did not ensure that providers that received
CCDF funds complied with State licensing requirements related to the health and safety of
children. We determined that the three providers that we reviewed did not comply with one or
more State licensing requirements to ensure the health and safety of children. Specifically, we
found that two providers did not always comply with one or more requirements related to the
physical conditions of the child care centers, and all three did not comply with required criminal
records or protective services checks.

WHAT WE RECOMMEND

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations and ensure adequate oversight by reducing licensing inspectors’
        caseloads and

    •   ensure that providers’ employees (current and prospective) who provide direct services to
        children have had criminal record checks and protective services checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation, acknowledging the benefits of a reduced caseload. However, according to the
State agency, nearly tripling the number of licensing inspectors to reduce the caseload is unlikely
because it would require additional resources and funding. To address the concerns, the State
agency discussed some alternative approaches, including conducting a thorough analysis of the
current inspection process to identify potential efficiencies to ensure the optimal utilization of
existing licensing inspection staff. The State agency concurred with our second
recommendation.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                  ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Michigan Childcare Services................................................................................ 2
               Related Office of Inspector General Work........................................................... 2
               Child Care Aware of America .............................................................................. 2
               Administration for Children and Families Proposed Regulations........................ 3

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 4
                State Requirements ............................................................................................... 4
                Providers Did Not Comply With Physical Conditions Requirements ................. 5

         Providers Did Not Always Comply With Required Criminal Records and
           Central Registry Clearance Checks .............................................................................. 5
                State Requirements ............................................................................................... 5
                Providers Did Not Comply With Required Criminal Records and
                  Central Registry Clearance Checks ................................................................... 6

         Cause of Noncompliance.................................................................................................. 6

RECOMMENDATIONS ............................................................................................................ 6

STATE AGENCY COMMENTS ............................................................................................... 6

APPENDIXES

           A: Scope and Methodology ........................................................................................... 8

           B: Federal Regulations and State Licensing Regulations .............................................. 9

           C: Photographic Examples of Noncompliance With
               Physical Conditions Requirements ...................................................................... 12

           D: Instances of Noncompliance at Each Child Care Center ........................................ 15


Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                                                               iii
        E: State Agency Comments ......................................................................................... 16




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                                             iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited three licensed child care
centers 2 (providers) that received CCDF funding in Michigan. We conducted this review in
conjunction with our review of 20 family and group child care homes (report number
A-05-13-00031).

OBJECTIVE

The objective of this review was to determine whether the Michigan Department of Education’s
(State agency) monitoring ensured that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act (CCDBG) and the
Social Security Act, § 418, assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, was approximately $5.2 billion.

The CCDBG Act and implementing Federal regulations require the State to maintain a plan that
certifies that the State has requirements in State or local law to protect the health and safety of
children, and the plan must certify that procedures are in effect to ensure that childcare providers
comply with these requirements (42 U.S.C. 9858c(c)(2)(F)-(G) and 45 CFR
98.15(b)(5)-(6)).

Federal regulations (45 CFR 98.10) require States to designate a lead agency to administer the
CCDF program.



1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 13, 2011).
2
 “Child care center” or “day care center” means a facility, other than a private residence, receiving one or more
preschool or school-age children for care for periods of less than 24 hours a day, where the parents or guardians are
not immediately available to the child.


Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                                     1
Federal regulations at 45 CFR §§ 98.11 (b)(4) and (6) state that in retaining overall responsibility
for the administration of the program, the lead agency must ensure that the program complies
with the approved plan and all Federal requirements and monitors programs and services.

Michigan Childcare Services

The State agency is the lead agency designated to administer the CCDF program. The Michigan
Department of Human Services’ Bureau of Children and Adult Licensing (State licensing
agency) is responsible for licensing and periodically monitoring providers. The State agency
shall certify that there are health and safety requirements that apply to all providers caring for
children receiving CCDF services that also may be covered by licensing requirements.

According to the Child Care and Development Fund Plan for Michigan, the State licensing
agency is responsible for childcare licensing and enforcement personnel, who conduct
inspections to ensure that providers meet basic health and safety standards. State regulations
mandate that the State licensing agency conduct an onsite evaluation of providers at least once a
year (Michigan Compiled Laws 722.118a).

Related Office of Inspector General Work

The Office of Inspector General, Office of Evaluation and Inspections (OEI), issued an Early
Alert Memorandum Report on July 11, 2013, to ACF entitled License-Exempt Child Care
Providers in the Child Care and Development Fund Program (OEI-07-10-00231). OEI
concluded that States may and do exempt many types of providers from licensing and that these
providers are still required to adhere to Federal health and safety requirements to be eligible for
CCDF payments.

Child Care Aware of America

Child Care Aware of America (CCAA) (formerly the National Association of Child Care
Resource & Referral Agencies) published a 2013 update, We Can Do Better, that reviewed and
ranked State childcare center regulations and oversight. 3 CCAA stated that effective monitoring
policies are important for child safety and provider accountability for compliance with State
licensing requirements. CCAA added that making inspection reports public is an important form
of consumer education because parents cannot make informed selections among childcare
settings unless they have access to compliance information. Otherwise, they assume that a State
license is a seal of approval. CCAA also suggests that with the important role effective
monitoring plays in promoting child safety and program compliance with licensing, the number
of programs that each licensing inspector monitors needs to be reduced, not increased. CCAA
recommended that States reduce the caseload for licensing inspectors to a ratio of 1:50

3
  CCAA works with more than 600 State and local referral agencies nationwide. CCAA leads projects that increase
the quality and availability of childcare professionals, undertakes research, and advocates childcare policies that
positively impact the lives of children and families.


Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                               2
(1 inspector for 50 cases).

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 4 The proposed changes include a requirement that State lead agencies perform an
initial onsite monitoring visit and at least one annual unannounced onsite visit of providers that
have received CCDF subsidies. The proposal also requires providers responsible for the health
and safety of children to receive specific and basic training commensurate with their professional
responsibilities. In addition, ACF stated that it strongly encourages lead agencies to establish
requirements for ongoing provider training.

HOW WE CONDUCTED THIS REVIEW

Of the 1,709 providers that received CCDF funding for the quarter ended March 31, 2013, we
selected 3 providers for our review. We based this selection on the availability of State licensing
consultants and their unannounced inspection dates. We accompanied the consultants on
unannounced visits to the centers that were due for inspection.

We conducted fieldwork in East Lansing, Muskegon, and Rochester Hills, Michigan. We
conducted unannounced site visits from June 13 to July 1, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details
on the Federal regulations and State licensing health and safety requirements that pertain to
providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                                FINDINGS

Although the State licensing agency conducted the required inspections at all three of the
providers that we reviewed, this onsite monitoring did not ensure that providers that received
CCDF funds complied with State licensing requirements related to the health and safety of
children. We determined that the three providers did not comply with one or more State
licensing requirements to ensure the health and safety of children. Specifically, we found that
two providers did not always comply with one or more requirements related to the physical


4
    78 Fed. Reg. 29441 (May 20, 2013).


Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                               3
conditions of the child care centers, and all three did not comply with required criminal records
or protective services checks.

Appendix D displays a table that contains the instances of noncompliance at each provider we
reviewed.

PROVIDERS DID NOT ALWAYS COMPLY WITH
PHYSICAL CONDITIONS REQUIREMENTS

State Requirements

A prospective provider applies for a child care center license by completing and submitting to
the State licensing agency an application to obtain a child care center license (Michigan
Compiled Laws 722.115). The application process includes an acknowledgment from the
applicant that the applicant has read the Child Care Organizations Act (1973 PA 116) and the
Licensing Rules for Child Care Centers and agrees to abide by them and that a licensing
consultant will make an onsite inspection during the licensing process. State licensing
regulations include the following requirements related to the physical conditions of child care
centers:

    •   means of egress shall be maintained in an unobstructed, easily traveled condition at all
        times that the center is in operation (R 400.5820(6));

    •   all electrical outlets in child use areas for children who are not yet school-age shall be
        made inaccessible to children (R 400.5850(5));

    •   containers of poisonous or toxic materials shall be stored out of reach of children
        (R 400.5903);

    •   the premises shall be maintained in a clean and safe condition (R 400.5940(1));

    •   an infant shall rest or sleep alone in an approved crib or porta-crib (R 400.5204(5));

    •   protective surfaces such as wood mulch, double shredded bark mulch, uniform wood
        chips … shall be provided in areas where … a child might fall (R 400.5117(8)(a)); and

    •   the center shall provide appropriate care and supervision of children at all times. The
        ratio of caregivers to children present at all times shall be based upon all of the following
        provisions: (a) for children 3 years of age, there shall be 1 caregiver for 10 children or
        each fraction of 10, including children who are related to the staff and licensee … (c) if
        there are children of mixed ages in the same room or in a well-defined space, then the
        ratio shall be determined by the age of the youngest child… (R 400.5105(1) through (3)).

Appendix B contains all relevant State licensing regulations.

Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                  4
Providers Did Not Comply With Physical Conditions Requirements

We determined that two of the three providers we reviewed had one or more instances of
noncompliance with requirements to protect children from potentially hazardous conditions.
Specifically, we found 17 instances of noncompliance with State licensing requirements related
to physical conditions. Examples of noncompliance included:

       •   a fire exit blocked by a garbage can (Appendix C, photograph 1),

       •   no protective covering on an electric outlet (Appendix C, photograph 2),

       •   a potentially hazardous substance (furniture polish) within the reach of children
           (Appendix C, photograph 3),

       •   brooms and rakes in doorway to a children’s bathroom (Appendix C, photograph 4),

       •   a safety recall on a crib that was being used (Appendix C, photograph 5),

       •   no protective material provided under a swing area (Appendix C, photograph 6),

       •   two toddlers wandering down the hall and in an unused classroom with no caregiver in
           sight, and

       •   1 caregiver to 11 children in a mixed group including 3-year-olds.

PROVIDERS DID NOT ALWAYS COMPLY WITH REQUIRED
CRIMINAL RECORDS AND CENTRAL REGISTRY CLEARANCE CHECKS

State Requirements

In Michigan, regulations require both Federal and State criminal records checks for a child care
center licensee (R 400.5102(1)). 5 Providers must perform a criminal history check using the
Michigan Department of State Police’s Internet Criminal History Access Tool (ICHAT) before
making an offer of employment to a person (R 400.5102(2)). In addition, the regulations require
that the staff member provide the provider a Central Registry Clearance document from the State
licensing agency that the staff member does not have a history of substantiated abuse or child
neglect before having contact with a child in care (R 400.5104(3)).




5
    We did not review the Federal Bureau of Investigation background check records as part of the scope of this audit.

Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                                  5
Providers Did Not Comply With Required
Criminal Records and Central Registry Clearance Checks

We determined that 48 employees at the 3 centers lacked 1 or more of the required criminal
records and/or Central Registry Clearance checks. Specifically:

    •   38 employees did not have a State criminal history check before being offered
        employment and

    •   10 employees did not have a Central Registry Clearance check.

Appendix D contains the number of instances and categories of noncompliance at each provider.

CAUSE OF NONCOMPLIANCE

On the basis of our discussion with State officials and our review of the State licensing
regulations, we determined that noncompliance with State requirements occurred because the
inspections were too infrequent and the inspectors were responsible for too many providers,
limiting the amount of time spent on each inspection. The State licensing agency is required to
make unannounced visits of providers at least once a year, and the average ratio of licensing
inspectors to programs is 1:172. Special investigations, initiated by complaints, delay regular,
unannounced visits. CCAA recommended that States increase inspections of providers to at least
once per year and that States reduce the caseload for licensing inspectors to a ratio of 1:50.

                                       RECOMMENDATIONS

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations and ensure adequate oversight by reducing licensing inspectors’
        caseloads and

    •   ensure that providers’ employees (current and prospective) who provide direct services to
        children have had criminal record checks and protective services checks.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation, acknowledging the benefits of a reduced caseload. However, according to the
State agency, nearly tripling the number of licensing inspectors to reduce the caseload is unlikely
because it would require additional resources and funding. To address the concerns, the State
agency discussed some alternative approaches, including conducting a thorough analysis of the
current inspection process to identify potential efficiencies to ensure the optimal utilization of



Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                               6
existing licensing inspection staff. The State agency concurred with our second
recommendation.

The State agency’s comments are included in their entirety as Appendix E.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)               7
                         APPENDIX A: SCOPE AND METHODOLOGY

SCOPE

Of the 1,709 providers that received CCDF funding for the quarter ended March 31, 2013, we
selected 3 providers for our review. We based this selection on the availability of State licensing
consultants who were conducting unannounced interim or renewal inspection of the centers. We
accompanied State licensing consultants on unannounced visits to homes due for inspection.

We conducted a review of the providers’ records and facilities as of August 2013. To gain an
understanding of the State agency’s operations, as they relate to child care providers, we limited
our review to the State agency’s internal controls as they related to our objective.

We conducted fieldwork in East Lansing, Muskegon, and Rochester Hills, Michigan. We
conducted these unannounced site visits from June 13 to July 1, 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, State statutes, and regulations for licensing providers
        and applicable Michigan CCDF State plan approved by ACF;

    •   interviewed the CCDF program staff to determine how Michigan monitored its providers;

    •   developed a health and safety checklist as a guide for conducting site visits;

    •   conducted unannounced site visits (inspections) at the three providers we selected for
        review;

    •   interviewed providers to obtain a listing of center employees whose salaries were funded
        by CCDF (and who had direct access to children) to determine whether all required
        criminal history records checks were conducted; and

    •   discussed the results of our review with State licensing officials and State agency
        officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                  8
APPENDIX B: FEDERAL REGULATIONS AND STATE LICENSING REGULATIONS

FEDERAL REGULATIONS

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR 98.1(a)(5)).

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State or local (or tribal) law, requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR 98.15(b)(5)).

Federal Regulation at 45 CFR §§ 98.11 (b)(4) and (6) state that in retaining overall responsibility
for the administration of the program, the lead agency must ensure that the program complies
with the approved Plan and all Federal requirements; and monitors programs and services.

STATE STATUTES AND REGULATIONS

According to the CCDF plan for Michigan, the State licensing agency is responsible for
conducting inspections to ensure that providers meet basic health and safety requirements
(Michigan Compiled Laws 722.115).

Michigan General Statutes

Michigan Compiled Laws 722.111(1)(g) – Child Care Center

A child care center is a facility, other than a private residence, receiving one or more preschool
or school-age children for care for periods of less than 24 hours a day.

Michigan Regulations for Licensing Rules for Child Care Centers are within sections
R 400.5101 through R 400.5940. 6

Michigan Compiled Laws 722.115(1) – Licensing

A person, partnership, firm, corporation, association, or nongovernmental organization shall not
establish or maintain a child care organization unless licensed or registered by the department.
Application for a license or certificate of registration shall be made on forms provided, and in the
manner prescribed, by the department. Before issuing or renewing a license, the department
shall investigate the applicant’s activities and proposed standards of care and shall make an on-
site visit of the proposed or established organization.



6
 On August 1, 2013, Michigan moved and amended these rules to R 400.8101 through R 400.8840. These changes
were made effective on January 2, 2014.

Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                      9
Qualifications of Applicant or Provider

R 400.5102(1)(b), (2)(b), and (7)(a) – Licensee

The licensee shall do the following:
   1. Comply with 1973 PA 116, MCL 722.115c requirements for a Michigan Department of
       State Police criminal history record check, a criminal records check through the Federal
       Bureau of Investigation, and a Michigan Department of Human Services (DHS) check for
       a history of substantiated abuse and neglect;

       2. perform a criminal history check using the Michigan State Police ICHAT before making
          an offer of employment to a person; and

       3. provide access to all records, materials, and staff.

R 400.5104(3) – Staff

A staff member shall provide the child care center with documentation from the DHS that he or
she has not been named in a Central Registry Case as the perpetrator of child abuse or child
neglect before having contact with a child in care.

Physical Environment

Michigan Compiled Laws 722.112 – Rules

DHS is responsible for development of rules in the areas of safety, cleanliness, and general
adequacy of the premises, including maintenance of adequate fire prevention and health
standards to provide for the physical comfort, care, and well-being of the children.

R 400.5820(6) – Exits

Means of egress shall be maintained in an unobstructed, easily traveled condition at all times that
the center is in operation.

R 400.5850(5) – Electrical Service

All electrical outlets in child use areas for children who are not yet school-age shall be made
inaccessible to children. 7

R 400.5113(a)(6) – Emergency Procedures

A written log indicating the date and time of fire and tornado drills shall be on file at the center.


7
    School-age is defined as kindergarten or higher grade but less than 13 years of age (R 400.5101(6)(iv)).

Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                                            10
R 400.5903 and R 400.5940(1) – Environmental Health

Containers of poisonous or toxic materials shall be stored out of reach of children.

The premises shall be maintained in a clean and safe condition.

R 400.5108(1) and R 400.5117(8)(a) – Equipment

The center shall provide an adequate and varied supply of play equipment, materials, and
furniture that is safe, clean, and in good repair.

Protective surfaces such as wood mulch, double shredded bark mulch, uniform wood chips,
fine or coarse sand, pea gravel, rubber or rubber-over-foam mats or tiles, poured-in-place
urethane, and rubber compositions shall be provided in areas where climbing, sliding, swinging,
or other equipment from which a child might fall is located.

R 400.5204(5) – Equipment

An infant shall rest or sleep alone in an approved crib or porta-crib.

R 400.5105(1) through (3) – Supervision and ratio requirements

(1) The center shall provide appropriate care and supervision of children at all times.
(2) A minimum of two staff members, one of whom is a caregiver, shall be present at all times
    when seven or more children over 3 years of age are present.
(3) The ratio of caregivers to children present at all times shall be based upon all of the following
    provisions:
    (a) For children 3 years of age, there shall be 1 caregiver for 10 children or each fraction of
        10, including children who are related to the staff and the licensee.
    (b) For children 4 years of age, there shall be 1 caregiver for 12 children or each fraction of
        12, including children who are related to the staff and the licensee.
    (c) If there are children of mixed ages in the same room or in a well-defined space, then the
        ratio shall be determined by the age of the youngest child, unless each group of children
        is clearly separated and the appropriate child/staff ratios for each age group are
        maintained.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                               11
        APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                    PHYSICAL CONDITIONS REQUIREMENTS




                   Photograph 1: A fire exit blocked by a garbage can.




                    Photograph 2: No protective covering on an electrical outlet.



Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                 12
                Photograph 3: Furniture polish within reach of children in a play area.




                         Photograph 4: Brooms and rakes in a doorway
                         leading to a children’s bathroom.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                       13
                Photograph 5: The Consumer Product Safety Commission had
                recalled this crib.




                 Photograph 6: No protective material (mulch or wood chips) under
                 a swing area.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                 14
              APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH
                             CHILD CARE CENTER

                                                                         Child
                                                                       Abuse and
                                         Potentially        Criminal    Neglect
                                         Hazardous           Record     Central
       Provider     Date of Last          Physical           Checks     Registry
          #          Inspection          Condition          (ICHAT)    Clearance   Total
          1           6/12/2012               0                25          0        25
          2           5/16/2012              14                 5          6        25
          3          10/15/2007               3                 8          4        15
                   Total                     17                38         10        65

Notice: We provided to the State licensing agency under a separate cover the specific names of
the providers we audited.




Some Michigan Child Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00053)                          15
                             APPENDIX E: STATE AGENCY COMMENTS 





             RICK SNYDER
               GOVERNOR


           June 10, 2014
                                                                     -

                                                              S'I'A'I'£! Or- MICHIGAN
                                                      DEPARTMENT OF EDUCATION
                                                                     LANSING                                   MICHAEL P. FLANAGAN
                                                                                                               SYAYC SUPE:RINTENOENT




           Sheri L Fulcher
           Regional Inspector General for Audit Services
           Office of Inspector General
           Office of Audit Services, Region V
           233 North Michigan, Suite 1360
           Chicago, IL 60601

            RE: Report Number A-05-13-00053

            Dear Ms. Fulcher:

           This letter provides t he Michigan response to your May 22, 2014 draft report #A-05-13-00053 entitled:
           Some Michigan Child Day Care Center Providers Did Not Always Comply with Health and Safety Licensing
           Requirements.

            We have attached our formal response to your recommendations. The Michigan Department of
            Education, lead agency, and the Department of Human Services, regulatory agency for licensing,
            collaboratively worked on this response and we concur with your recommendations for how we can
            improve our efforts to ensure the health and safety of children in Michigan.

            If you have any further questions or need additional Information, please contact Lisa Brewer Walraven at
            p~alrayeol@mlchlgan.gov          or (517) 373-4116.

            Sincerely,
               A     ..<:}. I fl
            ' f;l;j ('(
            Michael P. Flanagan·.   )
                                        J                       Maura D. Corrigan
            State. Superintendent:                              Director
            Michigan Departmen{ of Education                    Michigan Department of Human Services
            Enclosure              \/

            cc: Duane Berger, DHS
                lisa Brewer Walraven, MOE
                Susan Broman, MDE
                Kyle Guerrant, MOE
                Jerry Hendrick, OHS
                Julie Horn Alexander, DHS
                Naomi Krefman, MOE
                Jane Schultz, MOE
                Steve Yager, DHS
                                                            STATE BOARO OF EDUCATION 


                                        JOHN C. AUSTIN- PRESID ENT • CASANDRA E. ULBRICH- VICE PRESIDENT 

                                             DANIEL VARNER- SECRETARY • RICHARD ZEllE- TREASURER 

                                           MICHELLE FECTEAU- NASBE DELEGATE • LUPE RAMOS·MONTIGNY 

                                                   KAl"HLEEN N. STRAUS • EILEEN LAPPIN WEISEH 


                                        608 WEST ALLEGAN STREET • P.O. BOX 30008 • LANSING, MICHIGAN 48909 

                                                        WW\v.mfch lgan.gov/mde • (51'7) 373 ~3324




Some lvlichigan Child Ccue Centers DidNotAiwqys Comply
With State Health and Safety licensing Requirements (A-05-13-00053)                                                                    16
                                                                                          Page 1 of 1

                  State of Michigan Response to Federal OIG HHS Health and Safety Draft 

                        Report for Child Day Care Center Providers- A-05-13-00053 

                                                  5/29/14 



                OIG RECOMMENDATION #1 • Ensure through more frequent onsite monitoring
                that providers comply with health and safety regulations and ensure adequate
                oversight by reducing licensing inspectors' caseloads.

                 State of Michigan Response- The State of Michigan partially concurs with this
                recommendation .

                The State currently employs 68 child care licensing inspectors responsible for
                10,397 child care facilities resulting in a 1:153 caseload ratio. To implement the
                1:50 ratio recommended by Child Care Aware of America , the State of Michigan
                would be required to increase licensing inspector staff by 140 positions (+206%).
                While the State acknowledges the benefits of the 1:50 recommendation, nearly
                tripling the number of licensing inspectors is unlikely at this time as it would
                require additional resources and funding .

                However, to address the concerns cited in the audit report, the State will conduct
                a thorough analysis of the current inspection process to 1.) ensure that existing
                licensing inspector resources are applied to areas that provide the greatest
                assurance regarding the health and safety of the children served; and, 2.) identify
                any potential efficiencies in the inspection process to ensure optimal utilization of
                existing licensing inspection staff.


                OIG RECOMMENDATION #2 -Ensure that providers' employees (current and
                prospective) who provide direct services to children have had criminal record
                checks and protective services checks.

                 State of Michigan Response- The State of Michigan concurs with this
                recommendation. The State has an effective process in place to track and
                monitor criminal background checks on child day care license holders. Michigan
                relies on license holders to comply with background check requirements
                regarding their employees. Ensuring that background checks are performed on
                license holder employees has been, and will continue to be, a point of emphasis
                during the inspection process. Penalties for non-compliance, up to and including
                license revocation, will be enforced.




Some .lvlichigan Child Care Centers DidNotAiwqys Comply
With State Health and Safety licensing Requirements (A-05-13-00053)                                     17
